EXHIBIT

TTD''

Electronically Filed
Supreme Gourt
scAD-19-0000561
16-JUL-2020
11 :34 PM

Thank You For Your SuPPort
Dubin Law Offices
55

Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Faesimile: (808) 623-77 33

GARY DUBIN AND HIS TEAM ARE MY HEROES

,,When I was d.iagnosed with advanced stage cancer, I wasn't able to work to pay my
mortgage. I tried to do the right thing and sell my house, but just before closing, my big
roainland mortgage company added on more than $140,000 in unfair fees and penalties,
making the house impossible to sell.
My buyers were angry, I was sick and almost out of money, and the mortgage
company *.. fot".Iosing, which would mean losing the life savings I had invested in my
house. I honestly didn't know what to do'
Gary Dubin and his team took my case, fearlessly fought one of the largest mortgage
companier ir, th" country and won. This stopped the foreclosure proceedings and saved the
beautiful old. house I love so much and had spent years restoring. It was the most incredible
thing I have ever seen. Gary Dubin and his team are my heroes.tt

- M. M., Nuuanu,

Hawaii

THE BEST LAWYER SPECIALIST IN FORECLOSURE

,,Mr. Gary Dubin is the best lawyer specialist in foreclosure in the State of Hawaii.
Don't lose your money and your precious time. The only lawyer who can save your house is
Mr. Gary Dubin in Honolulu, Hawaii. He has the knowledge, experience,
24how I 7 days/week availability for his clients."
- C. 8., Honolulu, Hawaii

I HIGHLY RECOMMEND THE TEAM OF DUBIN LAW OFFICES

,,The tenacity of Dubin Law Offices is second to none. I highly recommend the team
of Dubin Law Offices to represent your interests. They are highly professional and very

proficient."

-

R. P., Makawao, Hawaii

FANTASTIC SETTLEMENT

,,Mr. Dubin and staff took on my foreclosure case in Honolulu and handled it with
outstand.ing legal expertise and. come through with a fantastic settlement in my favor."

-

D.G., Waikiki, Hawaii

I LISTEN TO YOUR SHOW. IT'S GREAT

,,I live in Washington State and listen to your show. It's great and has helped me to
understand what's really going on.'o
- A.A., Seattle, Washington

MAHALO FOR SO MUCH YOU AND YOUR TEAM DO

,.Mahalo for so much you and your team does! I have forwarded your show and
website to other fraud-closure fighters especially in CA and in other States."

1

R.Y., Berkeley, California

POSITIVELY THE VERY BEST IN ALL OF HAWAII
'oThe corruption which our home lending

institutions in this country have been able

to arm themselves with is criminal! The system has been manipulated over the years by the
lenders themselves and have in essence written their own laws for their own benefit and to
the demise on the American dream. I have myself lived through a long, drawn out
foreclosure process and have now a head of grey hair to prove I have "been there". This was
some of the most humiliating and stressful times of my life where I lived in fear from day to
day, answering my doorbell to large, scary looking men in black suites who would threaten
me as to the consequences of my not adhering to their eviction notices, which were places
publicity in the front of my home, where I had been living for some 20 years.
The primitive tactics which were used were terri$ring to say the least, my wife would
break down into tears as she would overhear the men at the door as they addressed me
with the threats. The emotions carried down to my 6-year-old daughter. It was a horrible
experience and wish it upon nobody.
As the "Man of the House", I felt degraded and was made to feel undeserving to be
living in my own home! Never a million years would I have ever dreamed of such a
nightmare. I had no clue as to how this system worked when it worked when it worked
against me.
I had always paid my bills on time and had a perfect credit score for my entire career.
I have a college education, 46 years old at the time, self-employed for 20 plus years and
consider myself to be above average in many ways. The home lending institutions we are
dealing with in our country are cutthroat and relentless. Before I knew it, the banks had
processed a non-judicial foreclosure on my home, and I was told to get out of my home
immediately or even more severe consequences would occur.
Documents were then sent to my home by way of special delivery stating that I was
no longer on title to my home. It showed that my lender had sold my home to another bank
at a private auction, which later we found out was the same bank under a different name.
The feeling reminded me of the humility and the pain I went through as a young boy
in high school. I was robbed of my lunch money at recess, had my pants torn down to my
knees and was severely beaten by three boys, all twice my size, then left on the ground
which a broken nose and two broken ribs, unconscious and in a puddle of blood and too
scared to name the assailants. It was because I had hit this bottom that I called upon my
business lawyer and friend, Sid.
Sid recommended that I contact Lawyer Gary Victor Dubin. Ever since that day,
things slowly turned around for me. I consider myself to be one of the lucky ones and Gary
was able to find many discrepancies in the way my loan was originally presented to me.
Breaches in commission payments to various brokers during my refinancing processes and
"Truth in Lending" issues were also named in my suit against CountryWide Home Loans.
OnIy because of my Lawyer and a fair Judge and due process as it should be am I still living
in my home today with a new 30-year loan modified through our battled in court with a
workable outcome and an interest rate of.3Yo.
My advice to anybody in a situation would be to not waste any time as I had done but
hire yourself a good lawyer immediately. I am in no way advertising for Gary Dubin but
would have to say that he is positively the very best in all of Hawaii. If not for Gary, I do
not know where I would be today. All I do know is that myself and my two girls are very
thankful. We thank Gary for saving our home and my dignity."
-A.M., Honolulu, Hawaii
2

A GREAT ATTORNEY

,,Mr. Dubin is a wonderful caring attorney that was able to make the mortgage
company admit they did wrongful acts during my lawsuit against them.
Mr. Dubin is always been agreeable to answering all of my questions and I would use
him in the future. He has kept me informed in new laws and events that affect my case."

-

L. B., Hilo Hawaii

THE ONLY CHOICE FOR SOMEONE WHO NEEDS LEGAL HELP

,,Gary Dubin helped us with an action against Bank of America when everyone said
it was either too late or impossible to win this case against the bank. For Gary, it was
neither too late or impossible as he won in our favor and helped us keep our home. Our only
regret was not using Gary Dubin from the beginning, without a doubt, he is brilliant and
the only choice for someone who needs legal help!"
- M. & M. A., Kula, Hawaii

OUTSTANDING ATTORNEY

,,Mr. Dubin has protected my family's $20,000,000 in real estate assets in Honolulu
since the mid-1980s. He is an outstanding attorney and leading specialist in real estate
litigation nationally. I recommend him highly. He and his law firm do an outstanding job no
matter how large or how small the amount at issue.o'

- M. 8., La Jolla, California
THANK GOD, THAT YOU ENTERED OUR LIVES!

,.You have been a godsend game changer for us. We were in deep dark black hole, which you have managed to pull us out off. I don't know if any other attorney could have
accomplished for us what you have. As I have mentioned to you many times, our case was
the first lawsuit that I have been involved with personally (I hope it is the last). Knowing
what I know now - I wish that I had known about you from the start - when we first got
involved. with the lawsuit, we would not have had this legal mess.
The prior attorneys that we hired did not do a very good job for us, but you have
turned things about for us, when no one else gave us a change.
You are tike the quarterback that enters the game in the fourth quarter with our
team behind 2L to nothing. It is now close to the 2-minute warning. We are behind 2I to 14
and on the opponents l0-yard line and driving for the tying touchdown. Thank God, that
you entered our lives!"

- A.Y., Honolulu, Hawaii

LOVE YOUR RADIO SHOW

,,I am almost every day, Iisten to your wonderful radio. Love the program, the work of
leading, music, interesting guest. AII for class!"
- A.M., Spirovo, Russia

3

WE WOULD HAVE LOST OUR HOUSE
"Dubin Law Offices has been there for us during a very difficult time and has been
helping us negotiate multiple loan modifications. Without their support and guidance, we
would have lost our house years ago. They have always been supportive of us and have had
our best interest in mind. We're very grateful that there are people like Gary Dubin and his
associates.ot

- M.P., Princesville,
THE DEFEAT OF BANK OF AMERICA

Hawaii

"You can imagine my horror and disbelief bank in 2000 when I contacted my primary
lender, Bank of America in an attempt to re-finance my property after having just reduced
my debt ratio by 50% with a $444,000 loan re-payment from the sale of my Los Angeles, CA
property, only to find that its subsidiary. BAC Home Loans had DOUBLED the mortgage
payment on my Hawaiian home without even informing me and based its claims on a
number of fraudulent points of business including: 1. A factious Escrow Account deficit; 2.
Forced Placed Hurricane Insurance (on a property that already had Hurricane Ins.) via a B
of A - owned insurance provided; and 3. Constant and relentless telephone harassment as
many as 3-times a day, and as early as 4:00 A.M. regarding this account. Attorney Gary
Victor Dubin and his staff at Dubin Law Offices, took up the gauntlet and championed my
cause with the end result being the defeat of Bank of America, BAC Home Loans, et al. in
the Hilo Courts December 12tn,2015."
- R. McC., Hilo, Hawaii

ANOTHER TERRIFIC LAWYER
"You are a magician. How many times, just with me, have you pulled a rabbit out of
the hat? Granted some of your other clients may not feel as grateful as I do, but they
haven't given you as many and as challenging a cascade of opportunities for you to show
your ledge domains as I have!
So much of this reminds me of why I didn't remain a lawyer. Watching you, as I did
another terrifi"c lawyer in my late 20's, I felt I needed to find a career that I could excel at as
much and love more than just a career, just as he did and as you do now. I succeeded, but
just not for as long a run as you've had.
When I see the one dimensionality of the NY lawyers I've used and their fear and
timidness, besides frightening De, it makes me doubly grateful for your relentlessness and
out of the box thinking, as well as the decades of experience you've had waging these kinds
of wars. I also love that you love the little guy against the usually corrupt system. I am
hoping that I help you have new and just law in Hawaii, in the dreaded foreclosure field
and that you get the deserved credit.
I know there's no guarantees in litigation, but I would have been hung and quartered
by now with any other lawyer."
- M.F., New York, New York

THANK YOU FOR ALL YOU'RE DOING
"Thank you for all you're doing to blaze a new trail of evolution and resolution!"

4

F.M., Chicago, Illinois

THANK YOU TREMENDOUSLY FOR EVERYTHING

,'Again, I thank you tremendously for everything you and your offices provided us in
trying to save our home over the last 7 years. It is an absolute blessing where we are going
on our new adventure.tt
- L. R-S., Ewa Beach, Hawaii

YOU'VE GIVEN US THE HOPE
"We are go grateful to you and your firm for all the help you've given us the HOPE
and. safety that you have bestowed to us in a very very trying difficult time, it's
unmeasurable.
We think of the hundreds of people you've saved from a life of ruin and we smile. You
must know you are loved, and your brain "admired".
But most of all, we are grateful for your protection and humor during this long
period. Thanks again for all you've done and for all you continue to do for our family.'o

- D.B. & J.8., Lahaina, Hawaii
NEVER SAY DIE ATTITUDE
have watched you perform on both sides of litigation; you are a special litigator
with a "never say die attitude". Sometimes, I wonder if our judicial system is not tilted
towards the politically connected, big money and large law firms. You help to level the

"I

playing field."

-

M.N., Honolulu, Hawaii

THANK YOU FOR WORKING MIRACLES

"Gary was personable, patient, knowledgeable, and helpful to me as his client. My
foreclosure was a complete mess, the mortgage was 8 years delinquent and the
commissioner (unbeknownst to me) had accepted an offer that the court confirmed, when I
found Gary. So, I brought him a mess. I didn't know what to do. I didn't think it could be
saved, but through Gary's creativeness and strategy (That I still don't fully understand) I
was able to resolve my foreclosure status and maintain control of the property. Thank you
for working miracles for me and my family! I fett as though my case was especially
challenging but Gary saved it.
I searched.long and hard for the right attorney to help me, without success. I was
embarrassed about my situation but am grateful that I asked around and found some
friends that recommended Gary to me. I heartily recommend him to any homeowner,
wishing to exercise their rights and pursue all legal remedies to keep their homes. Gary is
the best! He's a Warrior with a soft spot for homeowners."

-

D.G., North Shore, Hawaii

I REALLY APPRECIATE YOUR RADIO SHOW

,,I have been following your show for about the last six months. I really appreciate
the information you are discussion in regard to foreclosure."

- J.O., Olympia, Washington
5

THANK YOU FOR YOUR GREAT WORK ON YOUR RADIO SHOW

,,Thanks for your great work on your radio show! It's great listening to your show to
see how WalI St. and Washington have corrupted our judicial system."

GARY DUBIN

W.M., Honolulu, Hawaii

- THE PATRON SAINT OF DEBTORS IN POSSESSION

,,I have been in the Real Estate Development & Brokerage business in Hawaii since
lg71. Approximately 20 years ago, I had a client of mine in trouble with a bank that was
not living up to the agreements in made with my clients. I had heard the name Gary Dubin
around for defending people like mine in disputes with their banks so I asked my attorney
about this and he replied "Gary Dubin, you mean the patron Saint of Debtors in
Possession".
Since that time, I have used Gary and referred him to countless clients, friends and
colleagues who have needed help from time to time and Mr. Dubin always comes through
and meets his objectives.
I have only the highest regards for Gary and highly recommend him both as an
attorney and a friend."

- W.8., Kailua, Hawaii

CONGRATULATIONS ON YOUR EXCELLENT RADIO PROGRAM

am writing to congratulate you on your excellent radio program and the way you
presented the facts and insights. I am amazed at the level of your foreclosure insight,
professionalism and. the way you tackle the diverse array of issues, especially those dealing
with the theft of homes by the financial mafia - "Too Big to Prosecute."
o,I

-

H.A., Kissimmee, Florida

MR. DUBIN HAS A GREAT PASSION TO SAVE PEOPLE FROM FRAUD

am a client of the Dubin Law Offices, which I value considerably. Mr. Dubin spend
quality time with me in identifuing the problems I faced and the solutions to which I could
choose in which to strategically first the abuse and fraud that was imposed on me through a
wall street mortgage of which I had no agreement or knowledge of its working and severe
shortcoming in the years, past even until now. Mr. Dubin had a great passion to save people
from this kind of fraud and he got my confidence. He studies the problem, knows the courts
and all the trappings of the Mortgage Industry.
I highly recommend his firm. And feel safe in choosing them. Don't do this on your
own. You need a qualified firm to represent you."
- D.M., Honolulu, Hawaii
ool

I LOVE YOUR RADIO SHOW

,,I live in South Kona, Hawaii and absolutely LOVE your show and applaud what you
are doing on the air to ed.ucate the world about the banks'criminal behavior!!!! It's about

time!"

6

K.A., Naalehu, Hawaii

GARY IS A TRUE PROFESSIONAL

.,In January 20L0, my wife and I met with Gary Dubin to discuss our case. My wife
and I had. already contacted two other attorneys to help us. The first one did not even
bother to get back to us and the second took our money and disappeared later to have his
Iicense to practice suspend.ed. We heard about Gary from a friend and decided to try again.
Gary Dubin met with us and right away put our minds at rest. Gary is a true professional
with a heart for his clients. Gary has helped to keep us in our home now for 7 years while
still fighting out case. Thank you, Gary, and all of your staff and associates."

-

R. & M. L., Ewa Beach, Hawaii

THEY NEVER GIVE UP ON YOUR CASE

,,My first appearance in Civit Court Foreclosure was of my Condo. The dreadful
divorce preced.ed, involving five divorce lawyers to defend me from wife who left for Japan
and never returned. for I7 years to Hawaii. There were only credit card bills to pay. Ex-wife
tried. to liquidate the business I had and any hope of saving my business property. I went to
Foreclosure Court Pro-se, the judge passed final judgment on the Foreclosure Case that
morning.
I sought legal d,efense and retained Dubin Law Offices. Gary Dubin consulted me, his
legal team represented me at another hearing in court for the business I have. Given time
to present a case against the loan from an illegal trust who made the loan. Without Dubin
Law Offices, I had less that a L7o/o chance to keep my business property. My case is now
before the appeal court and have a good chance to win the appeal. I highly recommend
Dubin Law Offices for foreclosure defense. They never give up on your case."

- A.I., Honolulu,

Hawaii

I'M SO GRATEFUL FOR YOUR REPRESENTATION

*THANK YOU!! Hardty seems powerful enough to express my IMMENSE
GRADITUDE for ALL you have accomplished. I'm so grateful for your representation which
is so experienced and. knowledgeable in the law. It takes brilliance to wade through and
correctly argue for the rule of the law'tt
- 8.S., Kihei, Hawaii

THANK YOU ON BEHALF OF IMIPONO FOUNDATION

,,Gary, I just wanted to thank you on behalf of the Imi Pono Foundation and all of the
men and women that you've helped representing us, you don't realtze how many people you
have helped. I hope we can continue to help further. We are trying to expand our operations
to help more homeless."
J. S., Kaneohe Hawaii

YOU HAVE OUR ETERNAL GRATITUDE

,,I can't thank you enough for the burden you have taken from all our hearts. I am so very
grateful that you called me. Forgive me for equating lawyers with great white sharks.
Bottom line! You have our eternal gratitude.t'
G. W., Hilo, Hawaii
7

THANK YOU FOR WHAT YOU DO

o'Love your efforts and info. Thank you for what you do.tt

-

G. 8., Seattle, Washington

MR. DUBIN STANDS FOR TRUTH, LIBERTY, AND THE PURSUIT OF
HAPPINESS FOR HOMEOWNERS
"Mr. Dubin and his staff at Dubin Law Office are true American Patriots. Far too
many homeowners have been laid to waste by unscrupulous institutions. Unsuspecting
homeowners find themselves unwitting victims of well-oiled and finely tuned attacks
leaving them financially and emotionally exhausted. Dubin Law can make sense of your
situation and put it into a format the court will understand.
There are so many abuses, each more heinous than the last, that the homeowner
inevitably wastes their precious two minutes of court time going off on a tangent. The
homeowner thinks the court speaks English, and it sounds like English, but in fact it is a
language all to itself. Emotional appeals to fairness and to justice means nothing. The
well-funded institutions, literally stealing homes, know the language of court. Further,
these institutions organize and educate their legal representatives to further fi.ne tune their
ability to crush their opponents. Unfortunately, their opponent is you, and your home is
their prize.
Mr. Dubin goes beyond simply representing a single homeowner in court. He reaches
out to educate homeowners and their attorneys. Legal concepts are making it through to
some of the judges too. Listen to his efforts on the ForeclosureHour broadcasts. Mr. Dubin
stands for truth, liberty, and the pursuit of happiness for homeowners. The legal system is
a tool. Banks, loan servicers, and debt collectors have been using our court systems to
fraudulently steal homes for too long. Join the fight and you too can be a true American
patriot.'o
- S.W., Kailua-Kona, Hawaii

YOU ARE AN AMAZING ADVOCATE FOR HOMEOWNERS

"You are an amazing advocate for homeowners and bucking a judicial system. Thank
you from the depths of my soul for what you are doing.'o

-

B.T., Kihei, Hawarr

THANK YOU
"I just want to make sure you understand how your work on our behalf has made a
profound difference on many people's life. Thank for going this distance, for thinking hard
about it, applying your acumen, taking your precious time to present a worthy case, for
flying to the court, working on crazy deadlines, dealing with bizarre verdicts - such a
stressful life."
- L.C., Kauai, Hawaii

KEEP UP THE FIGHT!

"Congratulations! You're awesome! Keep up the fight! This does help. Listening to
your show right now on the mainland on iHeart Radio. Mahalo!"

8

E.M., Litchfield Park, Arizona

THANK YOU FOR YOUR GREAT SERVICE

"Never before have I witnessed an attorney with so much heart and feeling for a
client trying to save their home. In a seemingly hopeless situation, you give,hoP" with solid
law and the determination to fight a corrupt antiquated system that offers the homeowner
little relief or justice. You are relentless in your pursuit to help the little guy. The w9r_ld
would be a beiter place with more attorneys like you looking out for the homeowner's best
interest and fighting big banks that perpetually perpetrate fraud on the courts and fraud on
the public. Thank you for your great service. You are worth more than you charge."

-

8.T., Maui, Hawaii

THANK YOU

*Thank you for giving others and me hope to keep our homes!! My next run will be
for Congress. Foreclosures will be a major issue I take on.tt

o'A1l

E.L., Irving, Texas

REAL MODERN DAY HERO

my pro se attempts to get the Courts to follow the law have been ignored!
Thanks again for all you do and have been doing...you are an honest attorney and a real
modern-day hero in my opinion!"
- S.A., Leawood, Kansas

FOREVER GRATEFUL FOR DUBIN LAW OFFICES

"I cannot express the hole that my family was in and through Gary Dubin an_d_his
law firm, we came but of that dark hole!! His expertise is worth every penny spent! My
family home was a victim of fraudulent foreclosure and I found Dubin at the rigt_rt time! Our
case iook some time, but patience is a virtue and we won!! I love Mr. Dubin and his staff.
My family will be forever grateful for Dubin Law Offices."

-

D.U., Laie, Hawaii

WE THANK GOD FOR GARY AND HIS TEAM

ooDubin Law fi.rm has been a God send to me and my wife. We had been scammed by
two other Attorneys in a battle to try to save our home from our corrupt mortgage co. who

wrote us an illegal home loan. Gary and his team not only restored our faith in Attorneys
they gave ,6 p"u." of mind in this long fight and are still standing strong by our sides. We
thanli God foi Gary and his team. They are truly professionals."

-

R.L., Ewa Beach, Hawaii

STATE OF THE ART

"Mahalo to you and John for another great show today! I have learned so much from
your presentations and guests and remain very grateful for your continued "state of the art"
repreientation. Thanks again for all the great work!"

-

C.L., Kapolei, Hawaii

THANK YOU
"Thank you for your help and hard work, God Bless your team. With much Aloha!
- A.T., Paia, Hawaii
9

WE WOULD LIKE TO EXPRESS OUR GRATITUDE

"On behalf of Imi Pono Foundation and its Founder, Mr. Jody A. Solbach, we would
like to express our gratitude for your unwavering assistance in helping us in,retaining
these properties. Your assistance has led to altering the lives of several hundred men and
*otn"ir on thei" road to recovery; many of those would be homeless without our facilities.
Thank you and much appreciation from Imi Pono Foundation and its members."

- J.S., Kaneohe, Hawaii
CARING ATTORNEYS LIKE YOU EXIST FOR PEOPLE LIKE US

"You and your staff have worked hard over time and we appreciate eve_rything you
have d.one and siill continue to push for a positive ending. We have read all of the similar
cases that you have provided and now have a clearer understanding of what other
homeowneis like us have felt hopeless and worried about losing their homes. It goes to
show that caring attorneys like you exist for people like us. We thank you for t!re-bottom of
our hearts for all your eff'orts and hard work. We look forward for the results of the coming
court hearing later this month."

- J.B. & J.B., Hilo, Hawaii
I'M LEARNING SO MUCH

,.I'm learning so much from your radio show. Once again, I can't thank you enough
for aII your work and educating the public."
- M.C., Kailua-Kona, Hawaii

YOU ARE AMAZING

appreciate your time AND the education, you're absolutely amazing. Your
team is lucky to have a vested mentor in you.tt
- A.R., Waialua, Hawaii

"I really

I WON

"I fought my own appeal at the Intermediate Court, I did my own litigati_ot 30-0+
pages later, pl"t i"S up eveiything I could fi"nd including OCC re-strictions on US Bank. The
appeltate court ruled in my favor, just so you know that this is the conclusion and I am
refieved to know that therL is still justice out there and I know you are the supporter of that
so I just want you to know that your initial meeting with me and you are taking the time to
actrrally pointing out the few key information about note assignment triggered my curiosity
about those legal aspects, so I did win."
- U.S., Waialua, Hawaii
OUR DEEPEST APPRECIATION

is with deepest appreciation that we acknowledge how very thankful we are for
Without you, Fred, your
you!
-fi"-, Your brain, yo.ti Witt, your life experience (street smarts!)!!!
our lives would be an entirely different story. We have one !Sht life, but at last, there
wi]] be others on this wheel called life! We pray for you and your happiness and continued
success. This Christmas, we always think of those who have touched our lives and you are
one of those special people! Thank you, thank you, thank you Gary."

"It

-

10

D.B., Maui, Hawaii

THANK YOU

ttThank you for sharing your time every week to educate your audience. Your legal
analysis is inspirational."
- D.G., Chesterland, Ohio

YOU ARE A BLESSING!
"You are a blessing! I was at a point of desperation and severe depression due to the
absence of hope! I believe God answered my prayers in getting in me in touch with you!"

- J.C., Kauai,

Hawaii

THANK YOU FOR YOUR CONSTANT SUPPORT

'oThanks for your constant support. You and your firm are doing miracles for our
homeless community dealing with drug and alcohol problems. God bless.

- J.S., Kaneohe, Hawaii
HELPING HOMEOWNERS

ttl love you Gary. You deserve a special place in heaven for helping homeowners.'o

-

8.T., Maui, Hawaii

THANK YOU FOR ALL YOUR HARD WORK

"Just a simple thank you for all your hard work. We truly appreciate the times you
would meet with us even if its last minute. You and your team are just outstanding, and we
are grateful for everything you have done for us. Mahalo for your patience, understanding,
and especially for giving us the opportunity to own our home again."

-

E.O. & H.O., Mililani, Hawaii

YOU ARE A GODSEND

"You are a godsend Gary. Bless you. We sleep well knowing you are at the helm.'o

- A.M. Kapaau, Hawaii
HOMEOWNERS NEED A CHAMPION LIKE YOU

"I am glad I have you in my corner. Homeowners need a champion like you to fight
for them, against this corrupt system. Great Job Gary!"

- A.M. Honolulu, Hawaii
THANK YOU
"Thank you, attorney. God is so good to us. God bless you more and more Godly
wisdom in our favor, glory to God. I thank God also for the Judge; he is a wonderful judge.
am in tears with joy, attorney. I love you in the love for the Lord God bless you."

- A.M. Honolulu, Hawaii
11

I

VICTORY

"Unbelievable appellate resume, you've prevailed using such a variety of arguments,
brilliant. I love what you mentioned today on your radio show, FOLLOW THE MONEY."

-

R.L. Honolulu, Hawaii

CONGRATULATIONS TO THE FORECLOSURE HOUR

"Info To Fight Foreclosure congratulates and commends Gary Dubin for his diligent,

and mostly succesiful, defense of homeowners and the American Justice System. We post
this review of his SIXTH anniversary and highly recommend you spend a few hours
Iistening to one of the most successful foreclosure defense attorneys in the nationlt'

-

infotofi ghtfore closure. com

ALOHA KAKOU DUBIN A MEKAWAIHE'E!

"I have great news to share with you in regard to our current foreclosure status as it
relates to this show the foreclosure hour. I am an avid listener to your show the foreclosure
hour. I do my best to listen attentively and also to study any avenue to benefit the favor of

my mother and. our house as we defend against what we believe to be a fraudulent
foreclosure. Recently we've received record. from the court, granting an order (in our favor)
for reconsideration. We were in summary judgmenti summary judgement was granted (in
opposition to us) and all seemed lost. Through extensive work and study, we filed many
different documents addressing various discrepancies that the court was willing to hear.
Most all of these things were either directly or indirectly attained by means of your show
the foreclosure hour. I'll be filing an order denying summary judgment next with great
confidence that it will be decreed. I do not consider this case to be over, but I do feel that the
tables have been turned. There has been a lot of prayer through this time of distress, but I
d.on't know if we could have done any of this without the support of your show! I am beyond
grateful. Mahalo Nui."
- S.H.,Honolulu, Hawaii

BRAVO!
you Mr. Gary Dubin and Mr. John Waihee for such a
great show. While I plan on never having to contest foreclosure, I love the content of this
show and find it all so fascinating. As 4I year old, Generation X'er, someone who grew up in
the late eighties and nineties, I appreciate the topics of discussion but what makes this
show great is getting a glimpse of the wealth of knowledge you both have and hearing about
your past experiences. I love that you are in tune with what goes on nationally and locally
and include topics that effect this industry. I have often stayed in my car after arriving at
my destination on to just listen to your awesome show. I also love that I can listen to past
shows on your website. I do wish the show were longer or even televised but I understand
the content may not be popular enough with the general public. I just wanted to thank you
for such a great show that for me is such a breath of fresh air."

"I would" just like to commend

- C.K. Honolulu,
t2

Hawaii

YOU WON THE APPEAL TODAY AS PROMISED

"What a wonderful Thanksgiving gift all because of you. You are truly a ray of light
from God for saving our home. There is a real story here and now we can implement the
lawsuit against PennyMac and Chase for perpetrating this fraud upon us. I hope you have a
wonderful Thanksgiving and know that you are loved by so many people thankful for your
presence on

earth'"

-8. & E. T. Maui, Hawaii
I APPRECIATE ALL YOU ARE DOING

t'Thank you, Sir......I appreciate all you are doing on this case as so many others that
you represent do as well. Our State Judiciary is a much better place with practicing Law
and hotding the "Big Boy's" accountable. You are hereby forbidden to ever retire GVD.''

- J.R. Honolulu,
,,Just to let you know

Hawaii

th.t I?"T:I"^J]r?"*il'?Irrorney I have ever had."
- J.V.C Maui, Hawaii

ENLIGHTENING AND REFRESHING
"For ten years, Gary Dubin in Hawaii has been practicing law defending homeowners
from foreclosure. He has preached his own version of how to combat foreclosure fraud. And
he has practiced what he preached. I find his work enlightening and refreshing.
His article and proposals are extremely well-written, objectively stated, reasonable
and necessary. In my opinion Dubin's quest should be supported by homeowners and nonhomeowners alike as it proposes to correct a deficit in our legal system, our economic
system and our society. The inequality of wealth that was exacerbated by what amounts to
outright theft by a handful of banks can be corrected and our economic system can be
stabilized if we return to the rule of law."
- Neil Garfield, Florida

STILL STUNNED
"Todd & I think of you so often and we constantly ponder on how in the world we can
ever thank you enough! You changed our lives and we will forever be grateful.
We are on tour, working our buns off.... to restore our home to its original beauty. All
thanks to you! I hope we can entertain you if you come to Kauai or our paths cross on the
mainland. Sending much love and respect.oo
- T. & M. Rundgren, Kilauea, Hawaii

AMAZING PERSON
"You're really awesome and amazing person. My family really love you Sir and we
thank God for giving you to us."

-

t3

E. Calucag, Waipahu, Hawaii

THE BEST OF THE BEST
"Gary is the best of the best. Very knowledgeable about the whole process! You want
a lawyer to really help and guide you, contact his office."

-

Hawaii Stream

I CANNOT THANK YOU ENOUGH

"Once again, I cannot thank you enough for all Dubin Law has done for Imi Pono
Foundation and the hundreds of members that have been helped by you."

- J.S., Kaneohe, Hawaii
AN ATTORNEYWITH THE GREATEST ETHICS AND MORALS
o'I agree, God bless you and

thank you. You are an attorney with the greatest ethics,
morals and the most intelligent I have ever meet and I pray God bless you with good health
and blessings in your life. I have the greatest respect and admiration for who you are.
Thank you.t'
- D.W., Maui, Hawaii

THANK YOU FOR SAVING MY BUSINESS

"Thank you, Gary, for saving my business. It could have been a totally different
result if it wasn't for you.tt
- D.T., Maui, Hawaii

THANK YOU!
"I found you to be not only knowledgeable and personable, but an inspirational leader
as well. In today's world, it is so refreshing to find such a capable attorney with such sound
fundamental values. You make us feel proud to be lawyers."

-

L.K., Honolulu, Hawaii

VICTORY
"We just had our case dismissed in Judge Cardoza's courtroom. Thank you, Mr.
Dubin, for your radio broadcast over the years that has allowed me to gain your knowledge
that's helped us in our victory."

- N.K., Wailuku, Hawaii
GREATEST ETHICS, MORALS, AND THE MOST INTELLIGENT

"I agree God bless you and thank you. You are an attorney with the greatest ethics,
morals, and. the most intelligent I have ever meet and I pray God bless you with good health
and blessings in your life. I have the greatest respect and admiration for who you are.
Thank you. At least the OCC wrote that they committed a violation by trying to do what
they did in the nonc pro tunc to change or say they corrected what I owed just to continue to
foreclose and by doing this, they violated the OCC between the same year they came back
into court with the nonc pro tunc. Now we can show Judge Cahill they committed deceptive
practices and show him this article you sent me."

t4

D.W., Wailuku, Hawaii

I AM WITHOUT WORDS
this house for me and my 80 years old
handicapped. mother. I am forever thankful to you for helping me. I am without words. If I
can ever help you or your family, I am a loyalist and will be there no matter what, that is
how I was raised."
- B.W. & Y.S.W, Honolulu, Hawaii

"I am

so grateful to you for saving

KEEP UP ALL THE GREAT WORK

"Thank you so much for all your efforts. I love to listen to your show. I always learn
something from each show, even the replays. Keep up all the great work."
- S.H., Honolulu, Hawaii

NEVER GIVE UP!
"Your reputation definitely proceeds you!
told me to never give up!"

I'll

never forget visiting your office and you

-

T.8., Independence, Oregon

YOU'RE A GENIUS
"I think you're a genius. I also appreciate the fact that you combine your mental
abitity with hard work and constant attention."
- D.P., Lihue, Hawaii

AMERICAN HEROS
"You are on my gratitude list of great American heroes. Thank you."

-

S.W., Kailua-Kona, Hawaii

THANK YOU
"Thank you again for all your fine work on my behalf and on behalf of your other clients."

-

C.A., Honolulu, Hawaii

THANK YOU

o'Every single time I touch the legal system something crazy happens. It is a cesspool of evil. I do
not know how you managed to survive and thrive all those years. It is tragic that in the end, it screwed
you too."
- E.D., Waialua, Hawaii

OPERATION "JUSTICE FOR ALL''

"We found that you were not only good-but incredibly good at your job. Complete knowledge of
all elements of foreclosure law. Your knowledge and expertise have to be tops in your field and the
specialty of foreclosure law. The local banks have a huge influence with local judges. Where do these
judges get house loans and credit lines?"
- B. C., Kailua, Hawaii

15

A TRAILBLAZER
"You have been atrailblazer in the realm of bank foreclosure abuses"

oosorry

K.R., Honolulu, Hawaii

AN OUTSTANDING JOB

to hear about the swamp trying to silence you as big surprise as you have done an
job.
The system as we know it, as far as I am concerned, is so comrpts, it is beyond belief."
outstanding

- T.R., Kilauea, Hawaii

YOU CAN COUNT ON US, GARY!
"We owe you so much gratitude and respect, Gary. We hope this injustice will be reversed."

-

M.R., & T.R., Kilauea, Hawaii

INCREDIBLY UNFAIR
ooThis

is incredibly unfair in what they are attempting to do to you and all you clients and family'"

-

O.K., Honolulu, Hawaii

THANK YOU FOR THE TIRELESS WORK
"Thank you for the tireless work you are doing.
display for this work, and I am gtateful."

I cannot begin to comprehend
-

the passion you

L.G., Haiku, Hawaii

YOU SAVED US
"Gary,you saved us at one of our lowest point. Knowing you were there watching our back for the
past ten years have given us sanity, that light we needed."
- A.M., Kapaau, Hawaii

THANK YOU FOR YOUR DEDICTION

a rare breed, a good man. I thank you for your dedication you have had to fighting for
humanity, providing balance, hope for the little guy. And personally, I am honored to know you. You
definitely provided peace when all was falling down around us. Knowing you had our back kept us from
drowning."
- M.M. & A.M., Kapaau, Hawaii

"You

are

BIGGEST FAN
know that I remain your biggest fan in Hawaii. Without your help, I would have lost my
home because I could not work while fighting cancer. If there is every anything I can do to help, I am a
writer author and editor, or can provide testimonials, or speaking in public - I am your girl. In my case,
you stopped predatory loans by Wells Fargo, and set a precedent that I am sure helped many others."
ooPlease

16

M.M., Honolulu, Hawaii

A CARING INDIVIDUAL
am truly sorry for what happened to you. We live in a comrpt system. You have worked hard
for all of your 300 clients. You are acaingindividual who wants to help others."

"I

-

L.M., Kapolei, Hawaii

DAVID & GOLIATH
"A family friend/insurance attorney specializingin fire insurance defense has won so many cases
against insurance companies that they keep targeting him with fake legal actions, another "David" going
up against Goliath. Your position is the same."

-

W.M., Wailuku, Hawaii

RIGHTS TO PRACTICE

defend your rights to practice your chosen profession until my last breath. I also can be
counted on as a fulI participant in your defense in any way possible, including testiffing in court on our
behalf."
- T.M., Henderson, Nevada

"I will

AMAZING AND SELFLESS MAN
"Gary, thank you for all you have done for me and so many others. You are an amazing and
selfless man that has helped so many."
- T.M., Kihei, Hawaii

YOU HAVE DONE SO MUCH
"You have done so much to help my family and myself and we have more to do. Let me know
what I can do to help you."

-

M.P., Princeville, Hawaii

YOUR FIRM HELPED ME VERY MUCH
"I would be glad to help you in your efforts. Your firm

helped me very much and I too feel the

legal system in Hawaii need some "adjustments"."

-

M.P., Kapolei, Hawaii

YOU ARE THE BEST
ooThank

you so much. You are the best!!! It would not have been possible if you have not given me
the opportunity to fight this case. I am extremely grateful."
- E.P., Wailuku, Hawaii
o'We

SUPPORTING YOU

are so sorry and disappointed in our system. Both my husband and I would like to please be
added to the client list supporting you."
- K.S., Honolulu, Hawaii

L7

TRUTH WILL PREVAIL
"Mahalo for all the work you have done here and let's hope truth will prevail."

-

R.S., Kihei, Hawaii

GARY DUBIN IS MY HERO
"Gary Dubin is my hero. He is the most brilliant attomey in the world to handle foreclosure
He is my attorney and will always be my attorney."
- E.S., Honolulu, Hawaii

cases.

ooWe

are here to support you and would love to join in on the fight for you. You have been a great
help to us, and we are here to help in any means possible."

-

D.S. & E.S., Mililani, Hawaii

WE NEED YOUR PROFESSIONAL HELP AND SUPPORT
"You and your staff have been helping us and guiding us through the foreclosure defense process
since October 2011, and we need your professional help and support to see us through to the end and
relying on your expert legal help. We, as your clients feel a desperate need for you and your firm to be
there for us in order for justice to prevail in our case."
- C.S. & D.S., Kilauea, Hawaii

BLESS YOUR HEROIC HEARI.
"Bless your heroic heart. You are a powerful advocate for good, and a rare foreclosure attorney at
that. Thank you for continuing to fight and for being our hero."

-

L.T., Kahuku, Hawarr

TOTAL TRUST IN YOU
ool

you Gury,100 percent with total trust in you,
hard work you do for all your clients."
stand by

ooYou

as a true supporter

of your amazing and

D.T., Kilauea, Hawaii

YOUR RECORD IS REMARKABLE

have helped so many local families to be able to stay in their homes. You have been my
attomey for over 6 years, and you have answered every email I sent, you never pressured me for more
money, and you have acted in a professional manner the whole time. You are one of the few attorneys in
the nation, that understands what these comrpt and crooked banks are doing to families. They make up
paperwork, (They have admitted that and paid fines for it), they get paid by mortgage insurance, and then
they still come after the homeowners. They file false and misleading documents to the court, without any
ramifications. Their greed is so nefarious that they even sell these loan packages to more than one buyer.
Your disbarment would be a giant loss to the Hawaii legal system and create undue hardships on all your
current clients who have cases pending. Your record is remarkable and should be rewarded not punished.
I deeply appreciated all that you have done for me."
L.M., Lahaina, Hawaii

-

18

SUFFERED DAMAGES
"I

have suffered damages. Being cut off from my attorney of choice leaves me vulnerable to

pretender lender abuses."

-

S.W., Kailua-Kona, Hawaii

SUPPORT FOR YOUR CASE
case. I can only assume the mortgage
justice.
No one else in this State has helped
lender (foreclosure companies) are funding this travesty of
more people in this situation. After 45 years,I am becoming increasingly disillusioned with Hawaii."

"I just want to offer my condolences and support for your

- D.W.,

Kahului, Hawaii

GARY & HIS FIRM ARE A VALUABLE NECESSITY
"I would like to take this time to thank Gary Dubin & his firm for helping us with our foreclosure
case. Gary has always been available via email, phone or in person appointments. It is very stressful at
times going through a foreclosure case but, with a clear and consistent approach to our defense Gary was
able to overturn a summary judgment against us and we are still in our home. Our fight continues & we
feel that Gary & his firm is a valuable necessity in our fight to save our home & to help others that are
facing foreclosure. There is not another lawyer in Hawaii with his expertise dealing with foreclosure
cases.tt

-

19

D.S & E. S., Mililani, Hawaii

